 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
 before disclosure to third parties. No redaction has been performed by the Office. of Inspector
 General. Recipients of this report should not disseminate it without the Inspector General's
 approval.                r




                       MEMORANDUM OF INQUIRY

   UNITED STATES SECURITIES AND EXCHANGE COMMISSION
              OFFICE OF INSPECTOR GENERAL

                                              PI No. 09-38
                        Introduction and Summary of Results of Inquiry

         The Securities and Exchange Commission ("SEC") Office of Inspector General
. ("OIG") opened this preliminary inquiry on February 6. 2009•.in response to allegations
  by Peter Scannell ("Scannell"), a former employee at Putnam Investment Management
  LLC ("Putnam"'), of misconduct by current and former SEC officials. Specifically,
  Scam~eII alleged that:

          (1)	     For a period of approximately five months, from April 2003 until
                   September 2003, the SEC's Boston District Office ("BOO")
                   ignored Scannell's w.arnings that certain institutional investors
                   w.ere preferentiaIIy allowed to market time l Putnam's mutual
                   funds;

          (2)	     The BOO failed to take any action against Putnam until Scannell .
                   contacted the Securities Division of the Commonwealth of
                   Massachusetts Office of the Secretary ("Massachusetts Securities
                   Division") regarding his allegations; and

          (3)	     The SEC's ultimate action against Putnam ignored the market­
                   timing-conduct that Sc~nnell had brought to the SEC's attention
                   because the BOO staff wanted to protect Putnam.


   Market timing was described by the Massachusetts Securities Division in-the action 'it filed against

 Putnam as follows:                                                                             .


                   Mutual funds are traditionally designed to belong-term investments for
                   buy and hold investors and are therefore favored investment vehicles
                   for Americans' retirement plans. Certain investors, however, have
                   attempted to use mutual funds to generate quick profits by rapidly
                   trading in and out ofcertain mutual·funds. Typically, these so called
                   "market timers" seek to capitalize on stale fund prices, 'often focusing
                   on price discrepancies involving international funds. Market timers
                   take adva,ntage of price inequities, but do so at the expense and to the
                   detriment of long-term shareholders:

Attached hereto as Exhibit 1 at 2.
  This document is subject to the provisions of the Privacy Act of '1974, and may require redaction
  before disclosure to third parties. No redaction has been performed by the Office of Inspector
  General. Recipients of this report should not disseminate it without the Inspector General's
, approval:


        The OIG found that BOO staff met with Scannell on April 28, 2()03, regarding his
allegations of market timing by certain institutional investors in Putman's mutual fun!Js.
Tl)e BOO staff held several internal meetings to discuss the appropriate response to
Scannell's allegations.

       The OIG found that BOO senior officials decided to not pursue an'investigation

of Putnam based on Scannell's allegationsl(b)(5)

(b)(5)




        The OIG further found that approximately five months after BOO senior officials
decided to not pursue Scannell's allegations that Putnam allowed certain institutional
investors to market time its funds, the SEC's Director of gnforcement received an
anonymous tip that some of Putnam's mutual fund portfolio managers were market
timing ~e very funds- they managed for their personal benefit The SEC did open an
investigation ofPutnam to pursue that allegation.                      .'

          Finally, theOIG found that on October 28, 2003, the ~EC instituted
 administrative proceedings against Putnam for allowing two of its portfolio managers and
 other employees to market time its mutual funds. On the same day that the SEC brought
,its action. against Putnam, the Massachusetts SecuritieS Division filed an action against
 Putnain based, iIi part, on the portfolio managers' personal market tim.ing. However,
 unlike the SEC, the Massachusetts Securities Division also sued Putnam and two of
 Putnam's institutional investors for the market-tinting conduct that Scannell had brought
 to the SEC's attention.

                                   The DIG's Inquiry
                                                                                                                ......
        The OIG took the SWOrn testimony ofthe following individuals:                                     .~




                                                                                                      .
                                                                                                      ~        -....
                                                                                                          -
                 (l) Peter Scannell (February 10, 2009);

                 (2)   (b)(7)(C)



                 (3)

                 (4)

                 (5)	 Stephen Cutler, the former Director of EnforcemeIit, (March 11,
                  , 2009).                                  '                      ,
                                                                                                                       ,.or!


                                                  2

      Thisdocumentis subjectto the provisionsorthePriv~cyAct          ot 1974. and may require redaction
     obeforedisdosure to third parties.. No redaction has beenperfor:med by the Office oflnspector
     General. Recipients of this report-should notdisseniinate it without the Inspector General's
     approval.


            oAdditionally, the OIG contacted 1_(b-::)(7_)(-::C):-:--=-_-=--:-:------:----:_----:----:_~-,,----J
     in the United States Attorney's Office forthe District of Massachusetts (July 2. 2(09).

             The OIG also reviewed the following documents: the Massachusetts Securities
     Division's' Administrative Complaint dated October28, 2003; the Massachusetts
     Securities Division's Consent Order dated April 8, 2004; the SEC's Administrative
     Proceeding File No. 3-11317 In the Matter ofPutnam Investment ManagementLLC
     dated October 28. 2003; the SEC's Action Memorandum In the Matter ofPutnam
     Investments LLC, dated October 27,2003; and the SEC's Litigation Release No. 18428,
     SEC v. Justin M. Scott and Omid Kamshad, Civil Action No. 03-12082, dated October
     28,2003.

                                      Results of the OIG Investigation

             Scannell was employed at Putnam from March 13.2000 untiUanuary JL 2003.
     Transcript .ofTestimony ofPeter Scannell ("Scannell Tr."), attached hereto a.s Exhibit 3,
     at 5-6. At the time he worked for Putnam, Scannell was a National Association of
     Securities Dealers licensed broker whose duties at Putnam included working with 40 I (k)
     plans and other defined contribution plans. Id.

             Scannell testified to the OIGthat certain Putnam investors, including the
     Boilermakers Union ("Boilermakers") pension fund and the Joint Industry- Board of
     Electricians ("JIB") pension fund(coIH~ctively, the "pension funds"), were allowed to
     frequently market time Putnam's mutual funds. Id. at 11;;;13 and 27. According to
     Scannell, he and several other co-workers complained to their supervisors about the
     pension funds' market timing, but nothing was done in response. ld. at 29.

     I.	        The BOO Staff Met with Scannell but Decidec:J Not to Pursue °an

                Investigation of his. Allegations
                     0




                After leaving Putnam, Scannelldeeided to a.pproach the SEC with his complaint
     about Putn_am allowing the pension funds to markettime its mutual funds and hired Jody
     Newman. an attorney at the law firm of Dwyer & Collora.. LLP. t6 assisthim in bringing                       0




     his alle~ationsagaitist Putnam to the SEC. Id. at -67. ~ccordin~ to Scannell, on March
     ~6, o20~o 3, Newman contacted an attorney atBDO. °t~ISlbehalf.. Id.. at t07 ~hortlv                 I'
     thereafter, on March 31, 2003, Newman spoke with (b)F> 1(11)(7) 1:then a ( )( )()
     BDO,and discussed Scannell's concerns. old. at 7L On April 1Q; Newman spoke with
                                                                                        l      III


00   ~.I(b)(7)(C) Iwho at the time was t.hel(b)(7)(C)                             lof BOO and
     l(b)(7)(C) I immediate supervisor. Ia. Scannell testifiedt.bat hedid:notpa.rticipate in any of
     those phone ca.lls. 1d. at 72.


       ScanneUdid not recall the name ofthe BOO attorney wbo Newman initially contacted.



                                                         3
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
  before disclosure to third parties.. No redaction has been performed by the Office of Inspector
  General. ReCipients of this report should n.ot disseminate it without the Inspector General's
  approval..

            Scannell testified that on April 28, 2003, he and Newman met with l(b)(7)(C) I
  l(b)(7)(land l(b)(7)(C)     I a BOO examiner. fd at 75. Scannell recalled the meeti,lg
  lasted an hour during which he :explained how the market timing trades worked. Id at
  75-76.

           l(b)(7)( Itestified that at the meeting with Scannell, ScanneILraised concerns related
  to the trading activity by the Boilermakers and JIB pension funds. 3 Transcript of
  Testimony ofl(b)(7) ,1(b)(7)( II(b)(7)(C) ITr~"), attached hereto as Exhibit 4, at 9. l(b)(7)( I
  recal.led learning that Scannell was aware of the pension funds moving large amounts of
  their holdings in and out of Putnam funds. Id l(b)(7)( Ialso recalled that Scannell
  complained that Putnam had "shut down~~ his own market timing of Putnam'~· mutual
  funds. Id. at 29, 40-41. According to l(b)(7)(C IScannell brought to the BOO meeting
  excerpts of Putnam's prospectuses. Id. at 9. Scannell also provided the BOO staff with a
  self-prepared spreadsheet showing profit and loss calculations of some ofthe individuals
  who h~d engaged in market timing trades. ]d. at 9-10.

             l(b)(7)( Itestified that after the meetin with Scannell, he and (b)(7) discussed the
  allegations withl(b)(7)(C) .. . Ithen (b)(7)(C)                                               then
  an l(b)(7)(C)        .     .      ..                .             ~nd l(b)(7)( II(b)(7)(C) I then
 I(b) (7)(C) .                 lin BOO Enforcement. [d. at 12-14. T7) stated that from April
  until early-September 2003, he and his supervisors had several discussions about whether
  to pursue Scannell's allegations. Id. at 22.
(b)(5)




 3 !lli1illJthought the meeting with Scannell had ocCurred sometime in Marc/12003. TranscrilJlof
 Testimony ofl(b)(7) I[llilffi] l(b)(7)(C ITr:;). dated July 13.2009, attached hereto as Exhibit 4. at 8. While
 !lli1illJ remembered-thatl(b)(7Iattended the meeting, he did not recalll(b)(7)( Iattending. rd. l(b)(7)( I
 testified that he had knOWn that Sc:annell was meeting with the staff. bllt did fjotbelieve that he had
 attended that meeting. 1(b)(7)( ITr, at 7 t. .


                                                         4
     This document is subjecUo the provisions ofthe Privacy Act of 1974, andcmay require redaction
     before disclosure to third parties. No redaction has been performed by the Office of Inspector
     General. Recipients of this report should not disseminate it without the Inspector General's
     approval.                    \

(b)(5)




          According to Scannell, after his April 28,2003 meeting with the BOO staff,
  Newman had additional contacts with the BOO staff until late-July 2003, whtm Newman
  told Scannell, "you know, they don'twant to [meetJ .any more." Scannell TI" at 76-77.
 ·At that point in time, Newm~ told Scannell thatartother attorney in her firm, Michael

  Collora, would handlethe.~epresentationgoing forward. Scannell Tr~ at 77.4 .


  II.	       In September 2003, Four Months aft~r M;e.ettng with the BDO Staff,"

             Scannell Contacted the Massachusetts Seeurities Division


          On September 3, 2003, New York State Attorney General Eliot Spitzer filed a
  com.plaint against Canary Capital Partners ("Canary"), a hedge fund. Thecomplffint
  alleged that canary entered' into illegal agreements with multiple, nationally known
  mutual funds to permit, inter alia, market timing by Canary allowing Canary to profit at
  the expense of other mutual fund shareholders See State ofNew York v. Canary Capital
  Partners LLC et al., Complaint (September 3, 2003), attached hereto as.Exhibit 5 at pgs.
  1-4. Simultaneously with the filing of that complaint, Spitzer announced a $40 million
  settlement agreement with Canary.. •See Ari Weinberg, Eliot Spitzer Finds His Canary, ..
  Forbes, September 3, 2003, attached hereto as Exhibit 6.

         Scannell testified that on September 8,2003, five days after Spitzediledthe
 action against canary action, he askedCollora to contact the office· of William Galvin,
 the Secretilryofthe Commonwe~lthof Massachusetts, and relay his allegations ofmarket
 timing at Putnam.s Scannell Tt; at 79. Accordin to Scannell, on September 11, 2003·, he
 met for four hours with!(b)(7)(C)         Iand (b)(7)(C)      of Galvin's office. ld at ,
 80. Scannell further testified that he showed them the Putnam prospectuses,and ~.

 spreadsheet that sho;wed the pension funds' profits from market timing trades. Id





 4    Scannell fired Co,lora approximately five months later. Scannell Tr;· at 81 .

. S Scannell testified that he discussed his allegations against Putnam several times' in late-August 2003 with
_Spitzer. Scannell Tr; at 78-79.



                                                         5
    This document is subject to the provisions oftliePrivacy Act of 1974, and may require redaction
    before disclosure to third parties. No redaction has been performed by the Office of Inspector
    General. Recipients of this report should. not disseminate it without the ., nspector General's
    approval.

    Ill.	    In September2003, the SEC Began Investigating Allegations that Putnam
             Employees Market-Timed its Funds

                 Itestified that after the Canary action was filed by Spitzer on September 3,
             l(b)(7)(C)
    2003~ the SEC's interest in market-timing issues was heightened. l(b)(7)(C) ITr. at 72-73..
    Shortlyafter the Canary action was filed, Stephen Cutler, the SEC's Director of
    Enforcement at that time, received an anonymous tip that Putnam employees were market
    timing its mutual funds. l(b)(7)( ITr. at 28: l(b)(7)( Itestified, "Shortly after Canary broke,
                                                                                  all
    maybe a day or tWo later, Steve Cutler, who Was the head of of Enforcement, received
    a tip that with Putnam there were employees who were engaging in their own personal
    market timing and that we should look at it.,,6!(b)(7)( ITr. at 28~

            1(P)(7)(C) I testified that immediately after the tip to l(b)(7)(C I the BDO sent an
    examination team to Putnam to pursue the allegation received by l(b)(7)( Iof market timing
    by Putnam portfolio managers. Id BOO also opened an Enforcement investigation into
    the allegation on September 12,2003. See NRSlEnfol"cement Detail-Table of Context,
    attached hereto as Exhibit 7.
(b)(5)




(b)(5)                                                          ISenior SEC Enforcement officials in
    Washington, DC, in consultation with the BDOstaff, made the decision to not include
    Scannell's allegations of market timing in the SEC action. Id. at 79-8p.




   6   Scannell does not believe that Cutler rece.ived a tip related to market timing by ·Putnam's own
    employees. Scannell Tr. at 80..82, He believes that his own attorneys' were the source ofthe tip to· Cutler,
    and that the substance ofthe tip was thatScannell Was plMning on contactingGa:lvin, ld.at'80-82,86~
   .Scannell did noqlrovideany evidence to the OIG to support his beliefthat his attorneys tipped Cutierin
    what he believes was an ettortto subvertScannelI'sattempts to expose Putnam. Nordoeshe offer any
    theory why his attorneys would have. brea9hed their dutyofcoilfidentiality to.scannell.

            In an interview with OIG, Cutler stated that the tip he received was that Putnam employees were
   markettiming Putnam's mutual funds. Interview Memorandum ofStephen Cutler (March II, 20Q9),
   attached hereto as Exhibit 8. Cutler's recollection Was corroborated by llliillD and l(b)(7)(C I See [ilijffi]Tr. at
  }8; l(b)(7)(cITr. at 73.


                                                            6
 This document is subject to the provisions or the Privacy Act or 1974, and may require redaction

 berore disclosure to third parties. No redaction has bee... perrormed by the Ortice or Inspector

 General. Recipients or this report should not disseminate it without the Inspector General's

 approva,l.


 IV.	        The SEC and the Massachusetts Securities Division Filed Actions Against
             Putnam, but only the Massachusetts Action Included Scannell's Allegations

         On October 28, 2003, the SEC filed a civil injunctive action against Justin M.

 Scott.and Omid Kamshad, two former Managing Directors and portfolio managers at

 Putnam, charging each of them with securities fraud in connection with their personal

 market timing trades in Putnam mutual funds. See Exhibit 9. In a related matter, the

 SEC instituted an administrative proceeding against Putnam alleging that Putnam

 engaged in securities fraud by failing to disclose to the funds or to the fund boards the

 pote~tially self-dealing transactions in fund shares by Scott,. Kamshad, and other

 employees. Id.


         On November 13, 2003, the SEC reached a partial settlement with Putnam
 requiring, inter alia, that Putnam retain an independent consultant to calculate the
 amounts necessary to fairly compensate Putnam funds' shareholders for losses
 attributable to excessive short-term trading and market timing trading activity by Putnam
 employees. See Exhibit 10. On April 8,2004, Putnam and the SEC reached a final
 settlement of the SEC's administrative action that required, inter alia, that Putnam pay $5
 million in disgorgement and a civil money penalty of$50 million. See Exhibit II.

         On October 28, 20(H, the Massachusetts Securities Division filed an
, administrative 'complaint against Putnam, Kamshad and Scott for violating the anti-fraud
  provisions of the Massachusetts Uliiforin Securities Act. See 'Exhibit 1. The complaint
  included the fo.llowing:                            .

                   Although market timing itself is not illegal for the
                   investors, mutual fund advisers have a fi9uciary duty to
                   treat all shareholders equitably. This obligation would
                   preclude gran~ing one group of shareholders (i. e., market
                   timers) privileges and rights not granted to'all shareholders
                  .(i.e., long':'term investors). In addition, when a fund's
                   prospectus disclosure indiCates that the fund management
                   will act to limit market timing, it cannot knowingly permit
                   such activities.

 Id. at 2.

       Putnam consented to a simultaneous settlement with the Massachusetts Securities
Division pursuant to which Putnam paid $5 million in restitution and a $50 milli~n fine.
See Exhibit 12 at 13-14. The Massachusetts Securities Division consent order that was
entered against Putnam included the following factual findings:

                   Oil September 11,2003, the Division received infonnation
                   from a Putnam registered agent alleging that individual
                   defined contributionl40IK plans ("DC/401K") plan


                                                  7
   This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction

   before disclosure to third parties. 'No redaction has been performed by the Office of Inspector

   General. Recipients of this report should not disseminate it without the Inspector General's

   approval.


                   participants Were moving money excessively between the
                   Putnam International V9yagerFund and the Putnam Stable
                   Value Fund; that Putnam "knew of the activity; and had
                   failed to take any action to stop it.

                   The Putn~mregistered agent further indicated that trade~
                  ,were routinely placed by Boilermakers Local Lodge No.5 ,
                   ("Boilermakers") plan participants on a daily basis between
                   3 ~d 4'p.m. In fact, according to the infonnation provided
                   by the registered agent, this activity was so prolific that the
                   last hour of the trading day became known internally as
                   "boilennaker hour" atPutnatIl'S Norwood office.

   [d. at 2. The consent order made similar factual findings with' respect to the JIB

   pension fund. ld at .7-8.       .


            Scannell claimed that, unli~e the Massachusetts Securities Division, the SEC did
   not inchidethe pension funds' markettiming activity that he brought to the SEC's
   attention in its action against Putnam because the BOO staff wanted to rotect Putnam.
   Scannell Tr. at 83-85, 96. Scannell stated that he believes the l-(b_)(7_)(_C_)_~---!
 I(b)(7)(C)                          /was fited shortly after the Massachusetts' Securities
   Division filed its complaint against Putnam beca,usel(b)(7)(C)     land other BOO officials
   had conspired to protect Putnam by suppressing his allegations. Id. at 82. Scannell did
   not offer any specific evidence to support his theory that BOO officials conspired to
  silence him other than the timing .ofl(b)(7)(C)      Ideparture from the SEC.

        , The OIG investigation did not find evidence substantiating Scannell's theory that
  the SEC   did notinclude in its Enforcement action the'allegationsheraised with them '
  because they were trying to protect Putnam. In fact; while the evidence suggests that the
  timingof!(b)(7)(C)    !departure may have been related to Scannell and h,isallegations,
  we did not find evidence that the SEC was motivated by protecfingPutnam or silencing
  Scannell.
(b)(5)




~Moreover, the fact that the SEC did sue Putnam and obtained a $SOmilhon civil
  penalty against it is inconsistent with the theory that 'sEC officials were primarily'
  concerned with shielding Putnam. from liability.



                                                   8
    This document is subject to th'e provisions ofthe Privacy Act ofl974, and may require redaction
    before disclosure to third parties. No redaction .has been performed by the Office of Inspector
    General. Recipients oftbis report should not disseminate it without the Inspector General's
    approval.

              While the OIG did find evidence thatl(b)(7)(C)        Ideparture from the SEC may
    have been related to the Putnam matter as Scannell claimed, we did not find that
    I(b)(7)(C) I was. forced to resign to protect Putnam. I(b){7)(C) I formally resigned Jrom
   ~on .Novem.ber 3, 2003. I(b)(7)(C)                                                  .
   ~ See Exhibit 13.               .      .
   (b)(7)(C)




                                              Conclusion

           The OIG investigation found tha.t the SEC's BDOstaffdid not initially pursue
   Scannell's April 2003 allegations regarding market timing by the pension funds, other
   than reviewing the relevant Putnam .prospectuses. j(b)(5)                                          i·
           J
  [(')(5                                                                                              I

           The OIGa)so found that in'September 2003 the BDClstaffdid open an
   investigation of Putnam related.to alleged market timing by Putnam employees. The
   SEC's Putnam investigation 'was opened because of a tip that the SEC received shortly
   after the Canary .case was filed by. Eliot Spitzer. At around the same time that the SEC
   opened its Putnam investigation, Scannell approached the Massachu.settsSecurities
   Division witli his allegations regarding market ti,ming by the pension funds.
. (b){5)




                                                    9

This document issu bject to theprovisionsofthe Privacy Act oJ 1974, and may require redactio"
before disclosure to third parties. No redaction has been performed by the Office oflnspector
General. Recipients of this report should not disseminate it without the I"spector General's
approval.


        Finally, the OIG found that l(b)(7)(C)  I departure from the SEC, while it may
have been related to Scannell's allegations, was not re,lated to an effort to protectPutnam
or silence Scannell.                  .            .

        In light oftheabove; the OIG did not find evidence substantiating the allegations
of ~taff misconduct in connection with its Putnam investigation and is proviqillg this
report to th       '    .      .e       f the Boston Regional Office and the Office of the
Chairman. (b)(7)(C)


Submitted:                                            Date:



Concur:                                               Date:



Approved:                                            . Date:
                                                                Iv (Iv. . ~    I ;..   00 1




              l.




                                               10

